APPENDIX 1
Decisions of the District Court
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
ANNE K BLOCK,
Plaintiff,
v.
WASHINGTON STATE BAR
ASSOCIATION, et al.,
Defendants.
CASE NO. 05-2018 RSM
ORDER ON MOTION TO
DISQUALIFY ALL WASHINGTON
STATE BAR ASSOCIATION
MEMBERS FROM HEARING THIS
CASE
I. INTRODUCTION
THIS MATTER comes before the Court on Plaintiff’s
Motion to Disqualify All Washington State Bar Association
Members from Hearing This Case Including But Not Limted
[sic] to Judge Ricardo Martinez Citing 9th Circuit Precedent.
Dkt. #9. Defendants Snohomish County, et al. have opposed
the motion, joined by a number of other Defendants. Dkts.
#12, #13 and #15. For the reasons set forth herein, the Court
now DENIES Plaintiff’s motion.
II. DISCUSSION
Plaintiff has filed a Complaint alleging a widespread
1

conspiracy to deprive her of her constitutional rights,
motivated by a desire to stop her from uncovering and
reporting on malfeasance and corruption at many levels of
government, including the Washington State Bar Association
(“WSBA”). Dkts. #1 and #19. It is part of the legal theory of
her case that all judges in the State of Washington, by virtue of
their membership in the WSBA, “have an inherent conflict of
interest that prevents them from hearing this case.” Dkt. #19 at
24,113.1.
Pursuant to 28 U.S.C. § 455(a), a judge of the United
States shall disqualify himself in any proceeding in which his
impartiality “might reasonably be questioned.” Federal judges
also shall disqualify themselves in circumstances where they
have a personal bias or prejudice concerning a party or
personal knowledge of disputed evidentiary facts concerning
the proceeding. 28 U.S.C. § 455(b)(1).
Under both 28 U.S.C. §144 and 28 U.S.C. § 455,
recusal of a federal judge is appropriate if “a reasonable
person with knowledge of all the facts would conclude that the
judge’s impartiality might reasonably be questioned.” Yagman
v. Republic Insurance, 987 F.2d 622, 626 (9th Cir.1993). This
is an objective inquiry concerned with whether there is the
appearance of bias, not whether there is bias in fact. Preston v.
United States, 923 F.2d 731, 734 (9th Cir.1992); United States
v. Conforte, 624 F.2d 869, 881 (9th Cir.1980). In Liteky v.
United States, 510 U.S. 540 (1994), the United States Supreme
Court further explained the narrow basis for recusal: [Jjudicial
rulings alone almost never constitute a valid basis for a bias or
partiality motion.... [O]pinions formed by the judge on the
basis of facts introduced or events occurring in the course of
the current proceedings, or of prior proceedings, do not
2

constitute a basis for a bias or partiality motion unless they
display a deep seated favoritism or antagonism that would
make fair judgment impossible. Thus, judicial remarks during
the course of a trial that are critical or disapproving of, or even
hostile to, counsel, the parties, or their cases, ordinarily do not
support a bias or partiality challenge. Id. at 555.
In the instant motion, Plaintiff fails to even allege that
any behavior by the Court during the (brief) course of this case
has demonstrated bias towards her. She argues that this
Court’s membership in the WSBA, coupled with other
historical factual allegations (which will be addressed below),
is sufficient to demonstrate the requisite conflict of interest.
The Court disagrees. Simple joinder of a bar association in a
party’s complaint “does not require recusal of judges who are
members of that bar association.” Denardo v. Municipality of
Anchorage, 974 F.2d 1200, 1201 (9th Cir. 1992) (citing Pilla
v. American Bar Assoc., 542 F.2d 56, 57-58 (8th Cir. 1976).
There are a string of cases holding that just belonging to a bar
association is not the kind of relationship which gives rise to a
reasonable doubt about a judge’s ability to preside impartially
over a case in which the bar association is a party.1 In fact, it is
unreasonable to assume that a judge’s membership in a state
bar association in any way foretells the kind of “deep-seated
favoritism or antagonism” that requires recusal. See King v.

See Hu v. American Bar Assoc., 334 F.Appx 17,19 (7th Cir.
2009) (citing Hirsh v. Justices of the Sup. Ct. of Cal., 67 F.3d
708, 715 (9th Cir. 1995)); In re City ofHouston, 745 F.2d 925,
930 n.8 (5th Cir. 1984); Plechner v. Widener College, Inc.,
569 F.2d 1250,1262 n.7 (3rd Cir. 1977); also Parrish v. Bd.
Of Comm’rs ofAlabama State Bar, 527 F.2d 98,104 (5th Cir.
1975).
3

Kansas, No. 09-4117- JAR, 2009 WL 2912475, at *1 (D. Kan.
Sept. 9, 2009). Importantly, none of Plaintiff’s factual
allegations demonstrate “a personal bias against [her] or in
favor of any adverse party.” Her allegation that the Court is “a
personal friend to WSBA Defendant in this case, Doug Ende,”
is not true. The fact that Mr. Ende and the Court served on a
CLE workshop panel in September 2014 (the only fact she
cites in support of this allegation; see Dkt. #9, Ex. A) is proof
of nothing more than that the two men were in the same room
at a point in time. Plaintiff produces no other evidence of any
kind of personal relationship with Mr. Ende, or how that
would demonstrate bias against her.
Plaintiff further cites the undersigned Judge’s involvement on
the Board of the Washington Leadership Institute, a joint
effort of the University of Washington School of Law and the
WSBA to solicit greater participation by underrepresented
portions of the legal community. .See Dkt. #9, Ex. B. She
characterizes this activity as “active member [ship] of a WSBA
Board,” but presents no evidence of a relationship between the
Leadership Institute and the WSBA that would lend itself to
reasonable assumptions of bias, nor any legal authority that
simply serving on the board of an organization co-founded by
a state bar association is sufficient to constitute per se
prejudice.
Finally, Plaintiff cites the fact that the undersigned
Judge formerly served as a King County Superior Court judge.
What she fails to do is to present any evidence of how a prior
term as a state judge constitutes proof of bias against her or in
favor of the WSBA (or even gives rise to a reasonable
question that bias might be present) or any legal authority
previously holding this to be the case. Although Plaintiff
4

claims to provide “binding” Ninth Circuit precedent that
“anytime the WSBA is a defendant, since all Washington
State judges are mandated to hold WSBA licenses, all WSBA
members must remove themselves from these cases,” Dkt. #9
at 4, a closer examination of her legal authority reveals no
such mandatory language. Indeed, in support of her assertion
that “[t]he Ninth circuit (sic) held as members of the
Washington State Bar Association, could become liable for its
wrongdoing, and therefore are indirect defendants in the case”
Plaintiff cites the case of Riss v. Angel, 131 Wn.2d 612 (1997).
The case is neither on point (involving the denial of a building
application to a nonprofit unincorporated homeowners
association) nor is it from the Ninth Circuit. It is inapplicable
to this issue.
Plaintiff also points to three prior instances in this
District where judges from outside the district were brought in
on local cases, but none of the cases involved appellate
opinions by the Ninth Circuit related to issues of prejudice
based on WSBA membership. The appointment orders
concerning those cases2 do not discuss judicial membership in
WSBA, do not discuss the existence of a conflict of interest
and do not stand for the propositions asserted by Plaintiff.
Other than the mere fact that an outside judge was
brought in, Plaintiff points to no holding that mere judicial
membership in the WSBA creates a potentially disqualifying
conflict. This Court finds that there is none.
III. CONCLUSION
Plaintiff has presented neither factual nor legal
evidence justifying her request that this Court recuse itself,
and the Court declines to do so. In conformity with LCR 3(e),
the Chief Judge refers any order in which he or she has
declined to recuse to “the active judge with the highest
5

seniority;” in this District. Accordingly the Court hereby finds
and ORDERS:
1. Plaintiff’s Motion to Disqualify (Dkt. #9) is DENIED.
2. In accordance with LCR 3(e), that this Order is referred to
the Honorable Ronald B. Leighton, the senior active judge in
this District, for review of this decision.
3. The Clerk is directed to provide copies of this Order to U.S.
District Judge Ronald B. Leighton.
Dated this 24 day of February, 2016.
RICARDO S. MARTINEZ
CHIEF UNITED STATES DISTRICT JUDGE

6

APPENDIX 2
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANNE BLOCK, Esquire, an individual,
Plaintiff-Appellant,
v.
WASHINGTON STATE BAR ASSOCIATION;
et al.,
Defendants-Appellees,
WILLIAM SCHEIDLER,
Intervenor-Appellee.
No. 16-35461
D.C. No. 2'15-cv-02018-RSM
MEMORANDUM* and ORDER
Appeal from the United States District Court
for the Western District of Washington Ricardo S.
Martinez, Chief Judge, Presiding
Submitted February 7, 2019** Seattle,
Washington
FILED
FEB 11 2019
MOLLY C. DWYER, CLERK U.S. COURT OF
APPEALS
* This disposition is not appropriate for
publication and is not precedent except as provided by
Ninth Circuit Rule 36-3.
* *
The panel unanimously concludes this case
is suitable for decision without oral argument. See
7

Fed. R. App. P. 34(a)(2).
Case: 16-35461, 02/11/2019, ID: 11185115,
DktEntry: 197-1, Page 1 of 6
Before: IKUTA and CHRISTEN, Circuit
Judges, and FREUDENTHAL, *** District Judge.
Plaintiff-appellant Anne Block appeals the
district court’s orders dismissing
her amended complaint against
defendants-appellees City of Gold Bar, Washington
State Bar Association (WSBA), Snohomish
County, Kenyon Disend, Sky Valley,
City of Duvall, Port of Seattle, King County,
and various individuals. She also
appeals a vexatious litigant pre-filing order
and orders awarding attorneys’ fees to
Kenyon Disend, Snohomish County, and City
of Gold Bar. We have jurisdiction
pursuant to 28 U.S.C. § 1291. We affirm in
part and vacate and remand in part.
1. Block’s motion for judicial notice is
DENIED. WSBA’s motion to strike
the brief of proposed intervenor William
Scheidler is GRANTED. Block’s
motions to strike are DENIED.
2. The district court did not abuse its
discretion by denying Block’s motions
to disqualify because Block failed to identify
any grounds for recusal. See 28
U.S.C. §§ 144, 4551 DeNardo v. Municipality of
Anchorage, 974 F.2d 1200, 1201
8

(9th Cir. 1992) (“The fact that a plaintiff sues a
bar association does not require
recusal of judges who are members of that bar
association.”). We therefore affirm
the orders denying Block’s motions to
disqualify.
* * *
The Honorable Nancy D. Freudenthal,
United States District Judge for the District of
Wyoming, sitting by designation.
2
Case: 16-35461, 02/11/2019, ID: 11185115,
DktEntry: 197-1, Page 2 of 6
3. The district court had discretion to award
attorneys’ fees to Kenyon
Disend, Snohomish County, and City of Gold
Bar pursuant to Federal Rule of Civil
Procedure 11 and 42 U.S.C. § 1988 if it
determined that Block’s complaint was
frivolous. See Peloza v. Capistrano Unified
Sch. Dist., 37 F.3d 517, 524 (9th Cir.
1994) (per curiam) (observing that fee awards
pursuant to Rule 11 and § 1988 are
warranted in response to frivolous actions).
The district court concluded that
Block’s claims were frivolous, and Block fails to
demonstrate on appeal that the
district court erred in so concluding. We
therefore affirm the fee awards.
4. Block argues that the district court abused
9

its discretion when it imposed
a vexatious litigant pre-filing order. Before
imposing such an order, a district court
must(l) give litigants notice and “an opportunity to
oppose the order before it [is] entered”; (2) compile an
adequate record for appellate review, including “a
listing of all the cases and motions that led the
district court to conclude that a vexatious litigant
order was needed”; (3) make substantive findings of
frivolousness or harassment; and (4) tailor the order
narrowly so as “to closely fit the specific vice
encountered.”
Ringgold-Lockhart v. Cty. of Los Angeles, 761
F.3d 1057, 1062 (9th Cir. 2014)
(quoting De Long v. Hennessey, 912 F.2d 1144,
1147-48 (9th Cir. 1990)). We
strictly enforce these four requirements
because this type of order affects a
litigant’s fundamental right to access the
courts. See id. at 1061.
3
Case: 16-35461, 02/11/2019, ID: 11185115,
DktEntry: 197-1, Page 3 of 6
The district court imposed its pre-filing order
sua sponte in response to
Kenyon Disend’s motion for Rule 11 sanctions.
There is no indication that Block
had notice of the pre-filing order or an
10

opportunity to oppose it. We therefore
conclude that the district court abused its
discretion by issuing the pre-filing order
without appropriate notice and opportunity to
oppose. We vacate the order and
remand for further proceedings in accordance
with the four requirements set forth
in De Long.
5. The district court did not abuse its
discretion by denying Block’s requests
for extensions of time because Block failed to
demonstrate good cause. See Fed.
R. Civ. P. 6(b)(1). Block did not seek extensions
in advance of the time her
oppositions were due (in violation of the local
rules), and she filed multiple
motions of her own during the period in which
she claimed she was unable to file
oppositions. We therefore affirm the district
court’s orders denying extensions of
time.
6. Because Block fails to coherently argue that
the district court erred by
granting defendants’ motions to dismiss on res
judicata grounds, we affirm the
district court’s order. Greenwood v. FAA, 28
F.3d 971, 977 (9th Cir. 1994) (“We
will not manufacture arguments for an
appellant, and a bare assertion does not
4
11

Case: 16-35461, 02/11/2019, ID: 11185115,
DktEntry: 197-1, Page 4 of 6
preserve a claim, particularly when, as here, a
host of other issues are presented for
review.”). 1
7. The district court did not err by dismissing
Block’s remaining claims
against the WSBA, City of Duvall, Sky Valley,
Port of Seattle, and King County,
and various individual defendants. The
district court correctly dismissed Block’s
suit against the WSBA and WSBA individual
defendants on Eleventh Amendment
and quasi-judicial immunity grounds. See
Hirsh v. Justices of Supreme Court of
Cal., 67 F.3d 708, 715 (9th Cir. 1995) (per
curiam) (discussing immunity of a state
bar and state bar judges and prosecutors);
Clark v. Washington, 366 F.2d 678, 681
(9th Cir. 1966) (concluding the Washington
State Bar Association is “an agency of
the state” and not subject to liability under 42
U.S.C. § 1983).
With respect to City of Duvall, Sky Valley, Port
of Seattle, King County,
and the related individual defendants, we
conclude that the district court did not err
by dismissing Block’s defamation, civil RICO,
and retaliation claims. Block does
not argue that her defamation claim was
12

adequately pleaded for purposes of
Federal Rule of Civil Procedure 12(b)(6).
Moreover, Block fails to demonstrate
1 We deem Block to have waived all other
claims that were dismissed by the district court and
not distinctly raised on appeal, such as Block’s claim
that the defendants violated the Americans with
Disabilities Act. See Greenwood, 28 F.3d at 977.
Case: 16-35461, 02/11/2019, ID: 11185115,
DktEntry: 197-1, Page 5 of 6
that she satisfied her burden for alleging
retaliation and civil RICO claims. See,
e.g., Arizona Students’ Ass’n v. Arizona Bd. of
Regents, 824 F.3d 858, 867 (9th Cir.
2016) (discussing requirements for retaliation
claim); Grimmett v. Brown, 75 F.3d
506, 510 (9th Cir. 1996) (discussing
requirements for civil RICO claim).
Accordingly, we affirm the orders dismissing
Block’s claims.
VACATED AND REMANDED IN PART,
AFFIRMED IN PART.
Each party to bear its own costs on appeal.
6

13

APPENDIX 3
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANNE BLOCK, Esquire, an individual,
Plaintiff-Appellant,
v.
WASHINGTON STATE BAR
ASSOCIATION; et al.,
Defendants-Appellees,
WILLIAM SCHEIDLER,
Intervenor-Appellee.
No. 16-35461
D.C. No. 2:15-cv-02018-RSM
Western District of Washington,
Seattle
ORDER
Before: IKUTA and CHRISTEN, Circuit Judges, and
FREUDENTHAL,* District
Judge.
The panel has unanimously voted to deny
Plaintiff-Appellant’s petition for
panel rehearing. Judges Ikuta and Christen have
voted to deny the petition for

14

rehearing en banc, and Judge Freudenthal has so
recommended.
The full court has been advised of
Plaintiff-Appellant’s petition for
rehearing en banc, and no judge of the court has
requested a vote on the petition for
rehearing en banc. Fed. R. App. P. 35.

FILED
APR 2 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

*The Honorable Nancy D. Freudenthal, United States
District Judge for
the District of Wyoming, sitting by designation.
Case: 16-35461, 04/02/2019, ID: 11249560, DktEntry:
204, Page 1 of 2

The petition for rehearing and the petition for
rehearing en banc are
DENIED.

15

APPENDIX 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANNE BLOCK, Esquire, an individual,
Plaintiff-Appellant,
v.
WASHINGTON STATE BAR
ASSOCIATION; et al.,
Defendants-Appellees,
WILLIAM SCHEIDLER,
Intervenor-Appellee.
No. 16-35461
D.C. No. 2:15-cv-02018-RSM
MEMORANDUM* and ORDER
Appeal from the United States District Court
for the Western District of Washington
Ricardo S. Martinez, Chief Judge, Presiding
Submitted February 7, 2019**
Seattle, Washington

FILED
FEB 11 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

* This disposition is not appropriate for publication
and is not precedent
16

except as provided by Ninth Circuit Rule 36-3.
**The panel unanimously concludes this case is
suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
Case: 16-35461, 02/11/2019, ID: 11185115, DktEntry: 197-1,
Page 1 of 6

Before: IKUTA and CHRISTEN, Circuit Judges, and
FREUDENTHAL,
District Judge.
Plaintiff-appellant Anne Block appeals the district
court’s orders dismissing
her amended complaint against defendants-appellees
City of Gold Bar, Washington
State Bar Association (WSBA), Snohomish County,
Kenyon Disend, Sky Valley,
City of Duvall, Port of Seattle, King County, and
various individuals. She also
appeals a vexatious litigant pre-filing order and
orders awarding attorneys’ fees to
Kenyon Disend, Snohomish County, and City of
Gold Bar. We have jurisdiction
pursuant to 28 U.S.C. § 1291. We affirm in part and
vacate and remand in part.
1. Block’s motion for judicial notice is DENIED.
WSBA’s motion to strike

17

the brief of proposed intervenor William Scheidler is
GRANTED. Block’s
motions to strike are DENIED.
2. The district court did not abuse its discretion by
denying Block’s motions
to disqualify because Block failed to identify any
grounds for recusal. See 28

U.S.C. §§ 144,455; DeNardo v. Municipality of
Anchorage, 974 F.2d 1200,1201
(9th Cir. 1992) (“The fact that a plaintiff sues a bar
association does not require
recusal of judges who are members of that bar
association.”). We therefore affirm
the orders denying Block’s motions to disqualify.
* * * The Honorable Nancy D. Freudenthal, United
States District Judge for
the District of Wyoming, sitting by designation.
2
‘

Case: 16-35461, 02/11/2019, ID: 11185115, DktEntry: 197-1,
Page 2 of 6

3. The district court had discretion to award
attorneys’ fees to Kenyon
Disend, Snohomish County, and City of Gold Bar
pursuant to Federal Rule of Civil
Procedure 11 and 42 U.S.C. § 1988 if it determined
that Block’s complaint was
18

frivolous. See Peloza v. Capistrano Unified Sch.
Dist., 37 F.3d 517, 524 (9th Cir.
1994) (per curiam) (observing that fee awards
pursuant to Rule 11 and § 1988 are
warranted in response to frivolous actions). The
district court concluded that
Block’s claims were frivolous, and Block fails to
demonstrate on appeal that the
district court erred in so concluding. We therefore
affirm the fee awards.
4. Block argues that the district court abused its
discretion when it imposed
a vexatious litigant pre-filing order. Before imposing
such an order, a district court
must:
(1) give litigants notice and “an opportunity to
oppose the order
before it [is] entered”; (2) compile an adequate record
for appellate
review, including “a listing of all the cases and
motions that led the
district court to conclude that a vexatious litigant
order was needed”;
(3) make substantive findings of frivolousness or
harassment; and (4)
tailor the order narrowly so as “to closely fit the
specific vice
19

encountered.”

Ringgold-Lockhart v. Cty. of Los Angeles, 761
F.3d 1057, 1062 (9th Cir. 2014)
(quoting De Long v. Hennessey, 912 F.2d 1144,
1147-48 (9th Cir. 1990)). We
strictly enforce these four requirements because this
type of order affects a
litigant’s fundamental right to access the courts. See
id. at 1061.
3

Case: 16-35461, 02/11/2019, ID: 11185115, DktEntry: 197-1,
Page 3 of 6

The district court imposed its pre-filing order sua
sponte in response to
Kenyon Disend’s motion for Rule 11 sanctions.
There is no indication that Block
had notice of the pre-filing order or an opportunity to
oppose it. We therefore
conclude that the district court abused its discretion
by issuing the pre-filing order
without appropriate notice and opportunity to
oppose. We vacate the order and
remand for further proceedings in accordance with
the four requirements set forth

in De Long.
5. The district court did not abuse its discretion by
denying Block’s requests
20

for extensions of time because Block failed to
demonstrate good cause. See Fed.
R. Civ. P. 6(b)(1). Block did not seek extensions in
advance of the time her
oppositions were due (in violation of the local rules),
and she filed multiple
motions of her own during the period in which she
claimed she was unable to file
oppositions. We therefore affirm the district court’s
orders denying extensions of
time.
6. Because Block fails to coherently argue that the
district court erred by
granting defendants’ motions to dismiss on res
judicata grounds, we affirm the
district court’s order. Greenwood V. FAA, 28 F.3d

971, 977 (9th Cir. 1994) (“We
will not manufacture arguments for an appellant, and
a bare assertion does not
4
Case: 16-35461, 02/11/2019, ID: 11185115, DktEntry: 197-1,
Page 4 of 6

preserve a claim, particularly when, as here, a host of
other issues are presented for
review.”).i
7. The district court did not err by dismissing Block’s
remaining claims
21

against the WSBA, City of Duvall, Sky Valley, Port
of Seattle, and King County,
and various individual defendants. The district court
correctly dismissed Block’s
suit against the WSBA and WSBA individual
defendants on Eleventh Amendment
and quasi-judicial immunity grounds. See Hirsh V.

Justices of Supreme Court of
Cal., 67 F.3d 708, 715 (9th Cir. 1995) (per curiam)
(discussing immunity of a state
bar and state bar judges and prosecutors); Clark V.

Washington, 366 F.2d 678,681
(9th Cir. 1966) (concluding the Washington State Bar
Association is “an agency of
the state” and not subject to liability under 42 U.S.C.
§ 1983).
With respect to City of Duvall, Sky Valley, Port of
Seattle, King County,
and the related individual defendants, we conclude
that the district court did not err
by dismissing Block’s defamation, civil RICO, and
retaliation claims. Block does
not argue that her defamation claim was adequately
pleaded for purposes of
Federal Rule of Civil Procedure 12(b)(6). Moreover,
Block fails to demonstrate

22

i We deem Block to have waived all other claims that
were dismissed
by the district court and not distinctly raised on
appeal, such as Block’s claim that
the defendants violated the Americans with
Disabilities Act. See Greenwood, 28
F.3d at 977.
5
Case: 16-35461, 02/11/2019, ID: 11185115, DktEntry: 197-1,
Page 5 of 6

that she satisfied her burden for alleging retaliation
and civil RICO claims. See,

e.g., Arizona Students’ Ass’n v. Arizona Bd. of
Regents, 824 F.3d 858, 867 (9th Cir.
2016) (discussing requirements for retaliation claim);

Grimmett v. Brown, 75 F.3d
506, 510 (9th Cir. 1996) (discussing requirements for
civil RICO claim).
Accordingly, we affirm the orders dismissing
Block’s claims.

VACATED AND REMANDED IN PART,
AFFIRMED IN PART.
Each party to bear its own costs on appeal.
6

23

